No. ______

In the Supreme Court of the United States
__________________
SOUTHERN ILLINOIS STORM SHELTERS,
INCORPORATED, et al.,
Petitioners,
v.
4SEMO.COM, INCORPORATED,
a Missouri Corporation,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
John L. Gilbert
Counsel of Record
Douglas D. Churovich
Timothy C. Sansone
Cody S. Hagan
SANDBERG PHOENIX
& von GONTARD P.C.
600 Washington Ave., 15th Floor
St. Louis, MO 63101
314-231-3332
314-241-7604 (Fax)
jgilbert@sandbergphoenix.com
Attorneys for Petitioners
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
In this case, the Seventh Circuit panel refused to
apply the equitable six-factor test adopted by the
Second, Third, and Ninth Circuits to determine
common law trademark ownership rights as between a
manufacturer and the manufacturer’s distributor, even
though a prior Seventh Circuit panel had previously
recognized such test.
This raises the following
question:
I. Did the Seventh Circuit panel’s rejection of the
equitable multi-factor test proposed by Professor
McCarthy to determine common law trademark
ownership as between a manufacturer and its
distributor: (1) conflict with the well-justified
reasoning of sister circuits that have adopted the
test, (2) conflict with prior Seventh Circuit
precedent, and (3) create an unjustifiable
windfall to 4SEMO (the distributor) that will
likely force SISS (the manufacturer) out of
business?
Moreover, the Seventh Circuit panel upheld the
Southern District of Illinois’ objective determination
that a junior user’s (a manufacturer’s) common law
trademark use outside a senior user’s (a distributor’s)
common law trademark territory infringed the senior
user’s common law trademark rights, based upon the
junior user’s prior knowledge of the trademark, while
disregarding the equitable totality of the circumstances
as considered by the Second, Fifth, Eighth, and Tenth
Circuits. This raises the following question:

ii
II. Because a senior user’s common law trademark
rights do not extend beyond the geographical
territory in which the senior user uses the
trademark, and because mere knowledge does
not ipso facto establish res mensa, should this
Court adopt the Second, Fifth, Eighth, and
Tenth Circuits’ equitable totality of the
circumstances analysis to determine whether a
junior user’s common law trademark use outside
the senior user’s common law trademark
territory has no design inimical to the senior
user, and therefore is lawful, when the junior
user’s trademark might otherwise infringe the
senior user’s trademark if used in the senior
user’s territory?

iii
PARTIES TO THE PROCEEDING
Southern Illinois Storm Shelters, Incorporated;
Ingoldsby Excavating, Inc.; and Bob Ingoldsby are
petitioners here and were defendants-appellants below.
4SEMO.COM, Incorporated is respondent here and
was plaintiff-appellee below.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules,
Petitioners Southern Illinois Storm Shelters,
Incorporated and Ingoldsby Excavating, Inc. state that
they have no parent companies and no publicly held
corporation owns 10% or more of their stock.
STATEMENT OF RELATED PROCEEDINGS
• 4SEMO.COM INCORPORATED v. Southern
Illinois Storm Shelters, Inc., et al., Nos. 18-1998
& 18-2095 (7th Cir.) (opinion issued and
judgment entered Oct. 7, 2019).
• 4SEMO.COM INCORPORATED v. Southern
Illinois Storm Shelters, Inc., et al., No. 3:13-cv00297 DRH/SCW (S. Ill.) (amended
memorandum and order issued March 29, 2018;
final amended judgment entered May 13, 2019).
There are no additional proceedings in any court
that are directly related to this case.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . iii
CORPORATE DISCLOSURE STATEMENT . . . . . iii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . x
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
A. The Parties. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Ownership of the Marks . . . . . . . . . . . . . . . . . 3
C. District Court’s Opinion . . . . . . . . . . . . . . . . . 4
D. Appeal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

v
I. THE SEVENTH CIRCUIT’S REJECTION OF
PROFESSOR McCARTHY’S MULTI-FACTOR
TEST TO DETERMINE COMMON LAW
TRADEMARK OWNERSHIP AS BETWEEN A
MANUFACTURER AND ITS DISTRIBUTOR IS
OUT OF STEP WITH THE REASONING OF
SISTER CIRCUITS THAT HAVE ADOPTED
THE TEST, CONFLICTS WITH PRIOR
SEVENTH CIRCUIT PRECEDENT, AND HAS
PROVIDED AN UNJUSTIFIABLE WINDFALL
TO 4SEMO (THE DISTRIBUTOR) THAT WILL
LIKELY
FORCE
SISS
(THE
MANUFACTURER) OUT OF BUSINESS. . . . . . 6
A. This Court should acknowledge and ratify
the well-reasoned holdings of the Second,
Third, and Ninth Circuits, which have
adopted the McCarthy Test. . . . . . . . . . . . . . . 8
1. The unique and often overlapping
business relationship between a
manufacturer and its distributor creates
circumstances that demand close scrutiny
and consideration of multiple factors in
the context of common law trademark
ownership between the parties.. . . . . . . . 10
2. The McCarthy Test recognizes and
addresses the unique and often
overlapping business relationship
between a manufacturer and its
distributor to establish an equitable
analysis targeted at the nuances of that
relationship relating to trademarks.. . . . 13

vi
B. The Seventh Circuit’s inconsistent approach
toward the McCarthy Test warrants
guidance from this Court and adoption of the
test.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
C. The Seventh Circuit’s decision disregarding
a prior panel’s recognition of the McCarthy
Test has permitted a wholly inequitable
windfall judgment to stand against SISS (the
manufacturer) in favor of 4SEMO (the
distributor). . . . . . . . . . . . . . . . . . . . . . . . . . . 17
II. THE SEVENTH CIRCUIT’S IMPOSITION OF
COMMON
LAW
TRADEMARK
INFRINGEMENT AGAINST A JUNIOR USER
(SISS) BASED UPON THE JUNIOR USER’S
PRIOR KNOWLEDGE OF THE SENIOR
USER’S (4SEMO’S) UNREGISTERED
TRADEMARK – WHILE DISREGARDING ALL
OTHER EVIDENCE OF GOOD FAITH USE –
UNDERMINES THE EQUITABLE
TERRITORIALITY RIGHTS ESTABLISHED IN
THIS COURT’S HANOVER STAR AND
RECTANUS DECISIONS, CONFLICTS WITH
THE TOTALITY OF THE CIRCUMSTANCES
ANALYSES ADOPTED BY SISTER CIRCUITS,
AND EVISCERATES THE CONSTRUCTIVE
NATIONWIDE USE PROVISIONS OF THE
LANHAM ACT. . . . . . . . . . . . . . . . . . . . . . . . . . 19

vii
A. By disregarding the totality of the
circumstances, the Seventh Circuit’s
objective junior user “prior knowledge” test
unjustly imparts a “design inimical” finding
on otherwise good faith junior users, thereby
undermining the territoriality regimen
carefully constructed by this Court in
Hanover Star and Rectanus. . . . . . . . . . . . . . 21
1. The objective junior user “prior
knowledge” test conflicts with this Court’s
equitable precedent established in
Hanover Star and Rectanus by its
wholesale disregard for legitimate
circumstances that should be considered
when ascertaining the territorial scope of
competing parties’ common law
trademark rights, thereby failing to
properly and equitably determine the
subjective good faith of the junior user,
and should therefore be rejected by this
Court. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
2. The Seventh Circuit’s application of the
junior user “prior knowledge” test and
failure to recognize SISS’ good faith
adoption of the Disputed Marks resulted
in a miscarriage of justice.. . . . . . . . . . . . 30
B. The broad and nearly even split among the
Circuits regarding the proper analysis of a
junior user’s good faith adoption of a senior
user’s common law mark makes the objective
junior user “prior knowledge” test ripe for
review and rejection by this Court.. . . . . . . . 31

viii
C. The objective junior user “prior knowledge”
test impermissibly undermines key
provisions of the Lanham Act by expanding
the limited territorial scope of common law
trademark rights into judicially sanctioned
nationwide use, thereby eviscerating the
Lanham Act’s statutory benefit of
constructive nationwide use bestowed by
federal registration.. . . . . . . . . . . . . . . . . . . . 35
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
APPENDIX
Appendix A Opinion and Judgment in the United
States Court of Appeals for the
Seventh Circuit
(October 7, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Amended Judgment in a Civil Case in
the United States District Court for
the Southern District of Illinois
(May 13, 2019) . . . . . . . . . . . . . . App. 21
Appendix C Amended Memorandum and Order in
the United States District Court for
the Southern District of Illinois
(March 29, 2018) . . . . . . . . . . . . . App. 72
Appendix D Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the
Seventh Circuit
(November 5, 2019). . . . . . . . . . App. 132

ix
Appendix E 15 U.S.C. § 1057 . . . . . . . . . . . . App. 134
15 U.S.C. § 1072 . . . . . . . . . . . . App. 138
15 U.S.C. § 1127 . . . . . . . . . . . . App. 138

x
TABLE OF AUTHORITIES
CASES
4SEMO.com Inc. v. S. Ill. Storm Shelters, Inc.,
939 F.3d 905 (7th Cir. 2019). . . . . . . . . . 16, 30, 33
A.J. Canfield Co. v. Honickman,
808 F.2d 291 (3d Cir. 1986) . . . . . . . . . . . . . . . . 33
Allard Enterprises, Inc. v. Advanced Programming
Resources, Inc.,
146 F.3d 350 (6th Cir. 1998). . . . . . . . . . . . . . . . 33
Audio Vertriebs - Gmbh v. Kirksaeter Audiosonics,
Inc.,
196 U.S.P.Q. 453 (T.T.A.B. 1977). . . . . . . . . . . . 14
Braxton v. United States,
500 U.S. 344 (1991). . . . . . . . . . . . . . . . . . . . . . . 31
C.P. Interests, Inc. v. Cal. Pools, Inc.,
238 F.3d 690 (5th Cir. 2001). . . . . . . . . . . . . 29, 32
Covertech v. TVM,
855 F.3d 163 (3d Cir. 2017) . . . . . . . . 9, 11, 13, 14
Emergency One, Inc. v. American Fire Eagle Engine
Co., Inc.,
332 F.3d 264 (4th Cir. 2003). . . . . . . . . . . . . 26, 34
Estate of Beckwith, Inc. v. Comm’r of Patents,
252 U.S. 538 (1920). . . . . . . . . . . . . . . . . . . . . . . . 6
General Mills, Inc. v. Kellogg Co.,
824 F.2d 622 (8th Cir. 1987). . . . . . . . . . . . . . . . 32

xi
Glow Industries, Inc. v. Lopez,
252 F. Supp. 2d 962 (C.D. Cal 2002) . . . . . . . . . 26
Hanover Star Milling Co. v. Metcalf,
240 U.S. 403 (1916). . . . . . . . . . . . . . . . . . . passim
Ilapak Research & Dev. S.A. v. Record SpA.,
762 F.Supp. 1318 (N.D. Ill. 1991) . . . . . . . . . . . . 9
In re International Flavors & Fragrances, Inc.,
183 F.3d 1361 (Fed. Cir. 1999) . . . . . . . . . . . 21, 37
John Allan Co. v. Craig Allen Co., LLC,
540 F.3d 1133 (10th Cir. 2008). . . . . . . . . . . . . . 33
Mishawaka Rubber & Woolen Mfg. Co. v. S.S.
Kresge Co.,
316 U.S. 203 (1942). . . . . . . . . . . . . . . . . . . . . . . 25
MNI Management, Inc. v. Wine King, LLC,
542 F. Supp. 2d 389 (D.N.J. 2008) . . . . . . . . . . . 26
Mohamad v. Palestinian Auth.,
566 U.S. 449 (2012). . . . . . . . . . . . . . . . . . . . . . . 31
Premier Dental Products v. Darby Dental Supply
Co.,
794 F.2d 850 (3d Cir. 1986) . . . . . . . . . . . . . . . . 12
Prod. Source Int’l, LLC v. Nahshin,
112 F. Supp. 3d 383 (E.D. Va. 2015) . . . . . . . . . . 9
Raxton Corp. v. Anania Associates, Inc.,
635 F.2d 924 (1st Cir. 1980) . . . . . . . . . . . . . . . . 33
Sengoku v. RMC Int’l, Ltd.,
96 F.3d 1217 (9th Cir. 1996). . . . . . . . . . . . . . 9, 12

xii
Spartan Food Sys., Inc. v. HFS Corp.,
813 F.2d 1279 (4th Cir. 1987). . . . . . . . . . . . 25, 26
Star Industries, Inc. v. Bacardi & Co. Ltd.,
412 F.3d 373 (2d Cir. 2005) . . . . . . . . . . . . . . . . 32
Stone Creek, Inc. v. Omnia Italian Design, Inc.,
875 F.3d 426 (9th Cir. 2017). . . . . . . . . . . . . . . . 33
Tecnimed SRL v. Kidz-Med, Inc.,
763 F. Supp. 2d 395 (S.D.N.Y. 2011)
(aff’d, 462 F.App’x. 31 (2d Cir. 2012)) . . . . . . 9, 12
The Sports Authority, Inc. v. Prime Hospitality
Corp.,
89 F.3d 955 (2d Cir. 1996) . . . . . . . . . . . . . . . . . 29
Thrifty Rent-A-Car System, Inc. v. Thrift Cars, Inc.,
831 F.2d 1177 (1st Cir. 1987) . . . . . . . . . . . . . . . 34
TMT N. Am., Inc. v. Magic Touch GmbH,
124 F.3d 876 (7th Cir. 1997). . . . . . . . . . . 9, 15, 16
United Drug Co. v. Theodore Rectanus Co.,
248 U.S. 90 (1918). . . . . . . . . . . . . . . . . . . . passim
STATUTES
15 U.S.C. § 1057 . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 36
15 U.S.C. § 1072 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
15 U.S.C. § 1127 . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 21
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES
Sup. Ct. R. 10(a) . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 31

xiii
OTHER AUTHORITIES
J. Thomas McCarthy, McCarthy on Trademarks &
Unfair Competition (4th ed. 2015)
§ 16:11 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7
§ 16.48 . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13, 14
§ 29.8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13
Restatement (First) of Torts § 7332 (1938) . . . . . . . 24
Restatement (First) of Torts § 7332 (1938)
(Comment). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Southern Illinois Storm Shelters,
Incorporated, Ingoldsby Excavating, Inc., and Bob
Ingoldsby respectfully pray that a writ of certiorari
issue to review the United States Court of Appeals for
the Seventh Circuit’s judgment below.
OPINIONS BELOW
The Southern District of Illinois’ March 29, 2018,
Amended Memorandum and Order and the
corresponding May 13, 2019, Amended Judgment in a
Civil Case are attached as Appendix B and Appendix C
(neither document is published). The Seventh Circuit
Court of Appeals’ October 7, 2019, Opinion at issue
here is published at 939 F.3d 905 and is reproduced as
Appendix A. The Seventh Circuit Court of Appeals’
Order dated November 5, 2019, denying rehearing en
banc is attached as Appendix D.
JURISDICTION
Petitioners seek review of the United States Court
of Appeals for the Seventh Circuit’s Judgment entered
on October 7, 2019. Timely petitions for rehearing and
rehearing en banc were denied on November 5, 2019.
This Court’s jurisdiction is invoked under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The relevant portions of the Lanham Act, including
15 U.S.C. §§ 1057, 1072, and 1127, are reproduced as
Appendix E.

2
STATEMENT OF THE CASE
The underlying litigation revolved around the
ownership and purported infringement of two common
law (i.e., unregistered) trademarks: LIFE SAVER
STORM SHELTERS (the “Word Mark”) and a Logo
comprising a Greek cross with the Word Mark
embedded in the horizontal arms (collectively the
“Disputed Marks”), as shown below.

4SEMO filed claims to recover damages for
trademark infringement from Defendants under the
Lanham Act and various state laws. After a bench
trial, the United States District Court for the Southern
District of Illinois held Defendants jointly and severally
liable in the amount of $17,371,003 due to trademark
infringement and associated unfair competition arising
from Defendants’ use of the Disputed Marks and for
breach of contract in the amount of $26,940.
A. The Parties
Southern Illinois Storm Shelters, Incorporated
(“SISS”) and Ingoldsby Excavating, Inc. (“Ingoldsby
Excavating”) are relatively small corporate entities in
central Illinois established in the early 2000s by Robert
Ingoldsby (“Bob”). SISS is in the business of designing,

3
manufacturing, and selling fiberglass storm shelters.
These shelters are sold nationwide through a network
of dealers. Ingoldsby Excavating, Inc. installs some of
these shelters.
4SEMO is a home remodeling company operated by
one individual who hires seasonal help as needed. In
2005, the owner of 4SEMO saw an opportunity for his
company to offer an additional product/service line
through sales of SISS storm shelters. Therefore, on
May 5, 2005, 4SEMO entered into a Dealer Agreement
with SISS, allowing 4SEMO to sell SISS storm shelters
in portions of southern Missouri and northern
Arkansas as an SISS distributor (4SEMO’s “Distributor
Territory”).
B. Ownership of the Marks
Ownership of the Word Mark was hotly contested at
the underlying trial. SISS agreed that 4SEMO created
the Logo but consistently claimed SISS owned the
Word Mark and therefore had the right to use the Logo.
In support, SISS presented evidence that other SISS
dealers had been using the LIFESAVER name before
4SEMO ever entered the storm shelter business. For
example, SISS produced a 2002 Dealership Purchase
Agreement bearing the name “Life Saver Storm
Shelters” for marketing SISS shelters.
In addition to other SISS dealers using the
LIFESAVER name before 4SEMO began using the
mark, SISS presented evidence of its own use of the
LIFESAVER name in various pieces of literature before
4SEMO became an SISS dealer. For example, SISS
produced a brochure dated January 1, 2005, that

4
included the LIFESAVER name. Moreover, even after
4SEMO became an SISS dealer, SISS was using the
LIFESAVER name and 4SEMO was aware that SISS
was doing so. For instance, at trial SISS presented the
Court with SISS business cards printed by 4SEMO
with the name LIFESAVER on them.
Based on the above testimony and other undisputed
evidence, SISS contended that when 4SEMO began
using the Word Mark, SISS was allowing 4SEMO to do
so and had no idea 4SEMO was claiming ownership.
Therefore, SISS continued using the Word Mark, and
by extension the Logo, extensively and nationwide to
promote and sell SISS storm shelters, not only directly
but also through a nationwide network of dealers.
C. District Court’s Opinion
Nonetheless, the District Court held that 4SEMO
created and became owner of both the Word Mark and
Logo shortly after becoming an SISS distributor as part
of a marketing campaign to sell shelters. As a result,
the Court held that SISS had infringed those marks for
over ten years and that SISS had breached the Dealer
Agreement. The Court awarded over $17,000,000 in
damages against SISS for trademark infringement and
unfair competition over that ten-year period, and also
awarded 4SEMO $26,940 in breach of contract
damages.
The District Court reached this holding despite:
(1) SISS’ contention that it owned the Word Mark (and
thus rights in the Logo); (2) over 99% of the “infringing”
sales occurred outside SEMO’s Distributor Territory;
(3) no actual confusion was ever shown; (4) 4SEMO was

5
unaware of any of SISS’ “infringing” sales for nearly
ten years; (5) 4SEMO conducted no marketing or sales
outside its Distributor Territory; and (6) 4SEMO’s
yearly combined remodeling and shelter sales averaged
only $62,275.20.
D. Appeal
On appeal, SISS does not contest the District
Court’s factual findings. Rather, SISS asserts the
District Court and the Seventh Circuit Court of
Appeals failed to apply the proper legal framework for
determining trademark ownership and lawful use, and
therefore erred in finding trademark infringement and
unfair competition against SISS.

6
ARGUMENT
I. THE SEVENTH CIRCUIT’S REJECTION OF
PROFESSOR McCARTHY’S MULTI-FACTOR
TEST TO DETERMINE COMMON LAW
TRADEMARK OWNERSHIP AS BETWEEN A
MANUFACTURER AND ITS DISTRIBUTOR IS
OUT OF STEP WITH THE REASONING OF
SISTER CIRCUITS THAT HAVE ADOPTED
THE TEST, CONFLICTS WITH PRIOR
SEVENTH CIRCUIT PRECEDENT, AND HAS
PROVIDED AN UNJUSTIFIABLE WINDFALL
TO 4SEMO (THE DISTRIBUTOR) THAT WILL
LIKELY
FORCE
SISS
(THE
MANUFACTURER) OUT OF BUSINESS.
In the proceedings below, the District Court
awarded over $17,000,000 in damages against SISS, a
small family-run operation that manufactures and
installs storm shelters. The District Court determined
4SEMO, a distributor of SISS storm shelters in a twoState sales territory, were the lawful owners of two
common law trademarks (the Word Mark “LIFESAVER
STORM SHELTERS” and the Logo that incorporates
the Word Mark.1 Therefore, the Court held SISS’

1

The disputed Logo constitutes no more than a Greek cross with
the disputed Word Mark “LIFE SAVER STORM SHELTERS”
inscribed across the center of the cross. Thus, any trademark
rights in the Logo are inextricably linked to and dependent upon
the disputed Word Mark, which SISS claims to own. See, e.g.,
Estate of Beckwith, Inc. v. Comm’r of Patents, 252 U.S. 538,
545–546 (1920) (“The commercial impression of a trade-mark is
derived from it as a whole, not from its elements separated and
considered in detail”); see also J. Thomas McCarthy, 2 McCarthy

7
nationwide use of the Disputed Marks over a ten-year
period constituted willful infringement.
Throughout the entire ten-year period of supposed
infringement, SISS averaged approximately
$1.7 million in annual income for all its business
activities. 4SEMO, on the other hand, was a one-man
home renovation operation that periodically retained
seasonal employees and averaged merely $62,275.20 in
yearly income for all of its business activities. By
awarding 4SEMO a $17 million judgment, the District
Court has stripped SISS of all of its combined income
for ten years and turned that income over to a one-man
home renovation operation that on average earned
merely 3.7% of SISS’ annual income. Consequently,
imposition of this award drops a mammoth,
inequitable, and unjustifiable windfall into 4SEMO’s
lap, while pushing SISS into bankruptcy.
SISS has staunchly and repeatedly asserted
ownership of the disputed Word Mark, and by
extension the Logo. Nonetheless, the District Court
and the Seventh Circuit below found that 4SEMO, as
a distributor of SISS storm shelters, owned the
Disputed Marks based upon a “first use” analysis. This
simplistic analysis fails to account for a number of
relevant factors. As a result, several Federal Circuits
(and a prior Seventh Circuit panel) adopted an
equitable and thorough analysis created by

on Trademarks & Unfair Competition § 16:11 (4th ed. 2015)
(“Unlike patent law, rights in trademarks are not gained through
discovery or invention of the mark, but only through actual
usage.”).

8
Professor McCarthy.2 The McCarthy Test considers the
manufacturer to be the presumptive trademark owner
of disputed common law trademarks but also applies a
number of additional factors to determine ownership.
Had this test been rightfully applied, SISS would have
been found to own both Disputed Marks and thereby
found free from trademark infringement and attendant
unfair competition.
A. This Court should acknowledge and ratify
the well-reasoned holdings of the Second,
Third, and Ninth Circuits, which have
adopted the McCarthy Test.
With the exception of the panel below, each of the
Circuits that have considered the manufacturerdistributor relationship and its impact on common law
trademark ownership have acknowledged the
manufacturer’s presumptive ownership of a common
law mark used by its distributor, and have adopted the
McCarthy Test or a set of equitable circumstantial
factors premised on Professor McCarthy’s treatise.
Two Circuit Courts, the Third and the Ninth, have
expressly recognized the inequities of using the “first
use test” to determine trademark ownership rights as
between a manufacturer and its distributor, and have
adopted the equitable McCarthy Test to overcome the

2

J. Thomas McCarthy is an attorney, professor of law, and the
founding director of the McCarthy Institute for Intellectual
Property & Technology Law. Professor McCarthy has authored
one of the leading treatises regarding intellectual property law
that has been acknowledged and relied upon by courts nationwide.
This Court has relied upon Professor McCarthy’s treatise in at
least a dozen decisions.

9
deficiencies of the objective “first use” test. See
Covertech v. TVM, 855 F.3d 163, 170-172 (3d Cir.
2017); Sengoku v. RMC Int’l, Ltd., 96 F.3d 1217, 1220
(9th Cir. 1996) (adopting consolidated four-factor
version of the test). The Second Circuit has also
approved the Ninth Circuit’s consolidated four-factor
version of the Test. See Tecnimed SRL v. Kidz-Med,
Inc., 763 F.Supp.2d 395, 403 (S.D.N.Y. 2011) (aff’d, 462
F.App’x. 31, 33 (2d Cir. 2012)). Even a prior Seventh
Circuit panel recognized, if not adopted, the McCarthy
Test. TMT N. Am., Inc. v. Magic Touch GmbH, 124
F.3d 876, 884 n.4 (7th Cir. 1997) (approving the use of
the McCarthy Test “where the initial allocation of
trademark rights is in dispute”) (emphasis in original).
Furthermore, multiple District Courts in various
Circuits have likewise adopted and implemented the
McCarthy Test. See, e.g., Prod. Source Int’l, LLC v.
Nahshin, 112 F.Supp.3d 383, 395-97 (E.D. Va. 2015);
Tecnimed SRL v. Kidz-Med, Inc., 763 F.Supp.2d 395,
403 (S.D.N.Y. 2011), aff’d, 462 Fed.Appx. 31, 33 (2d
Cir. 2012); Ilapak Research & Dev. S.A. v. Record SpA.,
762 F.Supp. 1318, 1322 (N.D. Ill. 1991).
Therefore, the unexplained reluctance of the
Seventh Circuit panel below to fully recognize and
apply the McCarthy Test already approved by a prior
panel is out of step with sister Circuits and has created
confusion within the Seventh Circuit itself. Thus, in
accordance with Supreme Court Rule 10(a), this Court
should intercede by granting this Petition and
ultimately adopting the McCarthy Test.

10
1. The unique and often overlapping
business relationship between a
manufacturer and its distributor creates
circumstances that demand close
scrutiny and consideration of multiple
factors in the context of common law
trademark ownership between the
parties.
The ownership of common law trademarks in a
manufacturer-distributor relationship is an important
issue of public policy. As has always been the case,
trademark law serves an important role in reducing or
eliminating consumer confusion. Consumers want to
know what they are purchasing, and trademarks allow
consumers to comfortably assume what they are
purchasing is in fact what they believe it is and from
whom they believe is the source of what they are
purchasing. The fundamental aspect of trademark law
is to assist consumers in doing just that.
Unfortunately, if ignored or overlooked, the
manufacturer-distributor relationship can obfuscate
the true source of goods or services and deceive the
consuming public.
As convincingly articulated by the Third Circuit:
The first use test is generally proper for
unregistered trademarks, taking account of the
well-established common law principle of “firstin-time, first-in-right” that rewards actual and
continuous use in commerce as between market
competitors. See Ford Motor Co., 930 F.2d at
292; 2 J. Thomas McCarthy, McCarthy on
Trademarks & Unfair Competition § 16.1 (4th

11
ed. 2017). This paradigm is an imperfect fit,
however, when it comes to the often
exclusive
and
noncompetitive
manufacturer-distributor relationship,
where ownership rights would inure to the
benefit of the distributor in a multitude of cases
based simply on the fact that the distributor,
albeit at the manufacturer’s direction, made the
initial sale of goods bearing the mark to the
public.
Covertech, 855 F. 3d at 170 (emphasis added).
As the Third Circuit further explained, “In contrast
to a single actor’s entry into the market, manufacturers
and distributors typically engage in concerted action.”
Id. Often, however, “the contracting parties may omit
to make explicit provision for ownership of a mark [in
the manufacturer-distributor agreement], but even so,
have no expectation that a manufacturer, merely by
contracting with a distributor, thereby relinquishes its
ownership rights in favor of the distributor.” Id. at
172. “To presume that in every case where
ownership is not decided in advance, a distributor
who makes the initial public sale thereby assumes
the mark and the manufacturer cedes any claim
to initial ownership would defy logic and common
sense.” Id. (emphasis added). “Thus, it cannot be that,
in the absence of a contractual arrangement, the first
use test automatically fills that gap. Instead, a
different test accounting for the realities of the
manufacturer-distributor relationship must control.”
Id.

12
The Ninth Circuit wholeheartedly concurs.
“Disputes over trademark ownership often arise when
the mark is used on goods that are manufactured by
one company, but are marketed by another pursuant to
an exclusive distributorship agreement.” Sengoku, 96
F.3d at 1220. Two of the most common circumstances
that arise in this area are: (i) the manufacturer licenses
the mark to the distributor; and (ii) the distributor uses
a “private label” applied by the manufacturer. Id.
“Unfortunately, not every distribution agreement fits
clearly into one of these two categories. When disputes
arise between a manufacturer and distributor, courts
will look first to any agreement between the parties
regarding trademark rights.” Id. (citing with approval
Premier Dental Products v. Darby Dental Supply Co.,
794 F.2d 850, 854 (3d Cir. 1986)); see also 2 McCarthy
on Trademarks § 16.48 and 5 McCarthy on Trademarks
§ 29.8.
The Second Circuit has likewise recently approved
of a District Court’s use of the McCarthy factors
adopted by the Ninth Circuit in Sengoku. See
Tecnimed SRL v. Kidz-Med, Inc., 462 Fed.App’x. 31, 33
(2d Cir. 2012) (citing with approval to Sengoku).
Therefore, the Second, Third, and Ninth Circuits
have all recognized the need to utilize Professor
McCarthy’s recommended factors to ascertain the
common law trademark ownership rights as between a
manufacturer and its distributor (when there is no
memorialization and the manufacturer is accordingly
the presumed owner). The reasoning of these Circuits
to adopt the McCarthy Test applies with equal force in
the present case, and this Court’s approval and

13
adoption of the McCarthy Test will eliminate the
confusion arising from the Seventh Circuit’s indecision
below.
2. The McCarthy Test recognizes and
addresses the unique and often
overlapping business relationship
between a manufacturer and its
distributor to establish an equitable
analysis targeted at the nuances of that
relationship relating to trademarks.
Taking the unique circumstances of the
manufacturer-distributor relationship into
consideration, Professor McCarthy articulated a wellreasoned approach to determine the ownership of a
common law trademark between a manufacturer and
its distributor when such ownership has not been
memorialized. Under the McCarthy Test, when initial
ownership between a manufacturer and its distributor
is at issue and no contract exists defining such
ownership, the manufacturer is the presumptive
trademark owner unless the distributor rebuts that
presumption using a multi-factor balancing test
designed to examine the distribution agreement in
effect between the parties. Covertech, 855 F.3d at 171
(citing 2 McCarthy on Trademarks § 16.48 and 5
McCarthy on Trademarks § 29.8).
Of course, “[i]t is well settled that the question of
ownership of a trademark as between the
manufacturer of a product to which the mark is applied
and the exclusive distributor of that product … is a
matter of agreement between them, and in the absence
of any such agreement, there is the legal presumption

14
that the manufacturer is the owner of the mark.”
Audio Vertriebs – Gmbh v. Kirksaeter Audiosonics, Inc.,
196 U.S.P.Q. 453 (T.T.A.B. 1977) (identifying extensive
list of T.T.A.B. cases holding this proposition) (string
citation omitted). Despite the presumption in favor of
the manufacturer, “a distributor may rebut the
presumption.” 2 McCarthy on Trademarks § 16.48. A
set of specific equitable factors must be considered to
rebut this presumption. Id.
The six relevant factors are:
(1) which party invented or created the mark;
(2) which party first affixed the mark to goods
sold; (3) which party’s name appeared on
packaging and promotional materials in
conjunction with the mark; (4) which party
exercised control over the nature and quality of
goods on which the mark appeared; (5) to which
party did customers look as standing behind the
goods (e.g., which party received complaints for
defects and made appropriate replacement or
refund); and (6) which party paid for advertising
and promotion of the trademarked product.
Covertech, 855 F.3d at 171.
The failure of a tribunal, such as the District Court
and the Seventh Circuit panel below, to recognize the
presumptive ownership right of the manufacturer and
consider each of the McCarthy Test factors opens the
door to grossly inequitable results. Consider, for
example, a situation in which a distributor creates a
trademark (such as the Logo here) to identify and
benefit the marketing and sale of certain goods it is

15
selling for the manufacturer (such as the storm
shelters manufactured by SISS here). However, the
express purpose of the trademark is to identify the
manufacturer as the source of the goods.
The
distributor will, of course, be the first to use the
trademark on the manufactured goods and the “first
use” test would, therefore, erringly and inequitably
bestow ownership of the trademark upon the
distributor to the extreme detriment of the
manufacturer.
Alternatively, consider the situation in which a
manufacturer creates a mark for a distributor and
attaches that mark to a manufactured product or
product line to specifically identify the distributor as
the source for that particular line of good. Simply
attributing ownership to the manufacturer due to
creation or first use would inequitably divest the
distributor of proper ownership. The manufacturerdistributor relationship adds important wrinkles to the
normal trademark ownership analysis. Accordingly,
this Court should adopt the McCarthy Test to ensure
these wrinkles are properly considered.
B. The Seventh Circuit’s inconsistent
approach toward the McCarthy Test
warrants guidance from this Court and
adoption of the test.
Instead of properly applying the McCarthy Test
adopted by sister Circuits and previously recognized by
a Seventh Circuit panel (TMT N. Am., Inc. v. Magic
Touch GmbH, 124 F.3d 876 (7th Cir. 1997)), the panel
below employed a bootstrap argument to dismiss the
applicability of the test. In particular, the panel

16
commingled and conflated the District Court’s findings
of fact with conclusions of law. Without embracing or
even truly acknowledging the prior Seventh Circuit
panel’s recognition of the McCarthy Test, the panel
below stated that “for completeness … Professor
McCarthy’s ‘test’ might be relevant ‘where the initial
allocation of trademark rights is in dispute.’”
4SEMO.com Inc. v. S. Ill. Storm Shelters, Inc., 939 F.3d
905, 911 (7th Cir. 2019) (citing TMT N. Am., Inc., 124
F.3d at 884 n.4 (emphasis in original). However, the
panel declared that the District Court had already
“conclusively established as a factual matter” that
4SEMO was the initial owner of the Word Mark, such
that the McCarthy Test was not applicable. 4SEMO,
Inc., 939 F.3d at 911. But trademark ownership is a
legal conclusion and not a factual conclusion, and the
panel’s pronouncement collapsed the McCarthy Test
into an objective test of initial ownership (an improper
test for determining ownership between a
manufacturer and a distributor).
The panel relied upon the result of its reasoning to
justify that reasoning, constituting a classic and
impermissible circular argument. That is, the District
Court’s conclusion of law that 4SEMO was the “initial”
owner of the Word Mark was premised upon a “first
use” analysis, and did not take into consideration the
presumption of ownership benefitting SISS as the
manufacturer or the McCarthy Test factors. The panel
used that erroneous conclusion of law from the District
Court (i.e., that 4SEMO was the initial owner of the
Word Mark) to conclude that determining ownership of
the Word Mark using the McCarthy Test was
unnecessary.
Therefore, the panel essentially

17
concluded that since the District Court had already
determined ownership of the marks there was no
reason for the panel to analyze whether the underlying
determination was appropriate – the exact purpose of
the Seventh Circuit’s review.
Respectfully, the Seventh Circuit has been either
unable or unwilling to resolve its position regarding the
adoption and use of the McCarthy Test, leading to
confusion and uncertainty that this Court has the
power to resolve. This Court should do so.
C. The
Seventh
Circuit’s
decision
disregarding a prior panel’s recognition of
the McCarthy Test has permitted a wholly
inequitable windfall judgment to stand
against SISS (the manufacturer) in favor of
4SEMO (the distributor).
In addition to the uncertainty and confusion
stemming from the Seventh Circuit’s equivocation
regarding the McCarthy Test, the panel decision has
upheld the District Court’s inequitable and
unwarranted foisting of a windfall upon 4SEMO, while
pushing SISS into likely bankruptcy.
By failing to apply the McCarthy Test, 4SEMO (as
SISS’ distributor in a two-State region) was awarded
the entirety of SISS’ nationwide sales over a ten-year
period, a patently unjust result. The underlying
Courts, however, have failed to acknowledge the
equities of this case. For example, as a distributor
4SEMO was limited to selling SISS shelters in portions
of two States.
SISS, on the other hand, is a
manufacturer and nationwide distributor of shelters.

18
Nevertheless, the damages award was for the entirety
of Defendants’ income with no regard to the territorial
limits of 4SEMO’s distributorship. In reality, only
$26,940 of the $17,371,003 damages award arose from
infringing sales in the two-State 4SEMO Distributor
Territory.
Further, 4SEMO was a small one-man operation
primarily in the business of home renovation. The sale
of storm shelters was merely a side operation and
4SEMO’s gross revenues for all its business activities
only averaged $62,275.20 per year. Besides contractual
limitations on 4SEMO’s sales, 4SEMO simply did not
have the operations to make $17 million in storm
shelter sales. Nevertheless, because the underlying
courts applied the inequitable “first use” test to
determine ownership of the Disputed Marks, 4SEMO
was granted a $17 million damages award based on
SISS’ nationwide operations. This damages award is
more than 27 times 4SEMO’s gross sales for the entire
ten-year alleged infringement period. The inequities of
this case demonstrate the need for uniform application
of the McCarthy Test to determine common law
trademark ownership as between a manufacturer and
its distributor.

19
II. THE SEVENTH CIRCUIT’S IMPOSITION OF
COMMON
LAW
TRADEMARK
INFRINGEMENT AGAINST A JUNIOR USER
(SISS) BASED UPON THE JUNIOR USER’S
PRIOR KNOWLEDGE OF THE SENIOR
USER’S (4SEMO’S) UNREGISTERED
TRADEMARK – WHILE DISREGARDING ALL
OTHER EVIDENCE OF GOOD FAITH USE –
UNDERMINES
THE
EQUITABLE
TERRITORIALITY RIGHTS ESTABLISHED IN
THIS COURT’S HANOVER STAR AND
RECTANUS DECISIONS, CONFLICTS WITH
THE TOTALITY OF THE CIRCUMSTANCES
ANALYSES ADOPTED BY SISTER CIRCUITS,
AND EVISCERATES THE CONSTRUCTIVE
NATIONWIDE USE PROVISIONS OF THE
LANHAM ACT.
Throughout the proceedings below, SISS hotly
disputed 4SEMO’s claims of ownership of the Disputed
Marks. Believing in good faith that it owned the rights
in the Word Mark, and thus the Logo created by
4SEMO, SISS marketed and sold its storm shelters
across the United States in association with the
Disputed Marks via direct sales and via an assortment
of other distributors. SISS does not dispute that it later
became aware of 4SEMO’s claims that 4SEMO created
and owned the Disputed Marks before SISS began its
nationwide sales efforts using those marks, but SISS
firmly and rightly believed it was acting in good faith,
which it was. Notably, despite the District Court’s
adverse findings of fact against SISS, when fully and
judiciously examining the totality of the circumstances,
the record firmly supports SISS’ belief that it acted in

20
good faith—with no design inimical—and therefore
without infringement or unfair competition.
The inequitable and penal result imposed on SISS
by the District Court and the Seventh Circuit stems
from their misreading of this Court’s Hanover Star and
Rectanus decisions. Hanover Star Milling Co. v.
Metcalf, 240 U.S. 403 (1916); United Drug Co. v.
Theodore Rectanus Co., 248 U.S. 90 (1918). In
particular, the District Court and Seventh Circuit
adopted and applied an objective junior user “prior
knowledge” analysis of common law trademark rights
to determine “res mensa” and a “design inimical,”
rather than an appropriate and equitable totality of the
circumstances analysis.
This objective junior user “prior knowledge” test
considers only one discrete factor, despite the fact that
determination of subjective good faith dictates the
consideration of numerous factors to arrive at an
equitable conclusion. As such, this objective test
provides little if any deference to the equities that
comprise the foundation of the Lanham Act itself.
Moreover, in light of the nearly instantaneous
worldwide dissemination of knowledge readily
accessible across the internet and through other forms
of social media, precluding a junior user from any use
of a senior user’s mark—merely because the junior user
has prior knowledge of that mark—undermines the
Lanham Act by essentially granting the senior user
nationwide use of the mark without the requirement of
review and registration by the U.S. Trademark Office.
For these reasons and others, several Federal Circuits
have adopted totality of the circumstances tests or

21
analyses when considering whether a junior user’s
adoption of a senior user’s common law mark was in
good faith.
This Court should grant certiorari and reaffirm its
holdings in Hanover Star and Rectanus to require a full
examination of the circumstances when considering a
junior user’s good faith adoption of a common law
trademark confusingly similar to a senior user’s
common law trademark in a separate territory.
A. By disregarding the totality of the
circumstances, the Seventh Circuit’s
objective junior user “prior knowledge”
test unjustly imparts a “design inimical”
finding on otherwise good faith junior
u ser s, t h er eb y undermining the
territoriality regimen carefully
constructed by this Court in Hanover Star
and Rectanus.
Though an objective test based solely on the “prior
knowledge” of the junior user to determine the
subjective good will of a junior user’s adoption of a
senior user’s common law mark may superficially
provide a simple and more expeditious determination
of the junior user’s good faith, that determination has
little grounding in equity and can provide no assurance
of clarity in the marketplace – the very provenance of
trademarks. See, e.g., In re International Flavors &
Fragrances, Inc., 183 F.3d 1361 (Fed. Cir. 1999) (“It is
well established, as noted above, that the purpose of a
trademark is to distinguish goods and to identify the
source of goods”) (citing with approval 15 U.S.C.
§ 1127). Not surprisingly, this Court’s decisions in

22
Hanover Star and Rectanus recognized the need for an
equitable approach to the geographical reach of
common law trademarks and a junior user’s
appurtenant rights.
Under principles of equity and consistent with the
Tea Rose-Rectanus Doctrine, a senior user can only
enforce its common law mark against a junior user in
the geographic territory in which the senior user
actually sells its goods or services associated with the
mark, including any zone of natural expansion. Yet,
the objective test applied by the Seventh Circuit here
circumvents the equities of this Court’s holdings, so as
to sanction the determination that a junior user’s res
mensa constitutes a “design inimical” merely because
the junior user has “prior knowledge” of the senior
user’s mark. Such an inequitable interpretation of the
Hanover Star and Rectanus decisions should be barred
by this Court and the objective junior user “prior
knowledge” test should be put to rest.

23
1. The objective junior user “prior
knowledge” test conflicts with this
Court’s equitable precedent established
in Hanover Star and Rectanus by its
wholesale disregard for legitimate
circumstances that should be
considered when ascertaining the
territorial scope of competing parties’
common law trademark rights, thereby
failing to properly and equitably
determine the subjective good faith of
the junior user, and should therefore be
rejected by this Court.
Unregistered trademark rights are premised upon
and arise from principles of equity. Hanover Star, 240
U.S. at 411-12 (“The redress that is accorded in
[unregistered/common law] trademark cases is based
upon the party’s right to be protected in the good will
of a trade or business”); see also Rectanus, 248 U.S. at
93 (addressing unregistered trademark infringement as
a dispute in equity). These equitable considerations led
to the Tea Rose-Rectanus Doctrine, which sets forth the
rights as between senior and junior users of an
unregistered mark in separate geographical territories.
That is, a senior user’s common law trademark rights
are grounded in use of that mark and only extend to
the geographic territory in which the senior user sells
its goods or services associated with the mark,
including any area of natural expansion. This Court
stated:

24
[S]ince it is the trade, and not the mark, that is
to be protected, a trademark acknowledges no
territorial boundaries of municipalities or states
or nations, but extends to every market where
the trader’s goods have become known and
identified by his use of the mark. But the mark,
of itself, cannot travel to markets where
there is no article to wear the badge and no
trader to offer the article.
Hanover Star, 240 U.S. at 415-16 (emphasis added).
This approach is supported by the Restatement of
Torts:
The interest in a trade-mark or trade name is
protected, under the rule stated in § 717, with
reference only to territory from which he
receives or, with the probable expansion of his
business, may reasonably expect to receive
custom in the business in which he uses his
trade-mark or trade name, and in territory in
which a similar designation is used for the
purpose of forestalling the expansion of his
business.
Restatement (First) of Torts § 7332 (1938).
This approach is logical because, “[i]f the trademark or trade name is unknown in a particular
territory and there is no probability that it will become
known there, the use of a similar designation in that
territory will cause no harm to the person having the
trade-mark or trade name, since it cannot lead to
mistaken association with that person.” Restatement
(First) of Torts § 7332 (1938) (Comment).

25
As between a junior user and a senior user, this
Court has explained:
In the ordinary case of parties competing under
the same mark in the same market, it is correct
to say that prior appropriation settles the
question. But where two parties independently
are employing the same mark upon goods of the
same class, but in separate markets wholly
remote the one from the other, the question of
prior appropriation is legally insignificant;
unless, at least, it appear that the second
adopter has selected the mark with some
design inimical to the interests of the first
user, such as to take the benefit of the
reputation of his goods, to forestall the
extension of his trade, or the like.
Hanover Star, 240 U.S. at 415 (emphasis added).
This approach is staunchly rooted in principles of
equity, because a “plaintiff of course is not entitled to
profits demonstrably not attributable to the unlawful
use of his mark,” when (for example) “it can be shown
that the infringement had no relation to profits made
by the defendant, that some purchasers bought goods
bearing the infringing mark because of the defendant’s
recommendation or his reputation[,] or for any reason
other than a response to the diffused appeal of the
plaintiff’s symbol.” Mishawaka Rubber & Woolen Mfg.
Co. v. S.S. Kresge Co., 316 U.S. 203, 206 (1942).
Simply stated, an entity’s “common law [trademark]
rights are restricted to the locality where the mark is
used and to the area of probable expansion.” Spartan

26
Food Sys., Inc. v. HFS Corp., 813 F.2d 1279, 1282 (4th
Cir. 1987). “Accordingly, a plaintiff asserting a claim
of infringement against common-law trademark
ownership rights bears the burden of establishing its
exclusive right to use the mark by actual use in a
territory.” Emergency One, Inc. v. American Fire Eagle
Engine Co., Inc., 332 F.3d 264, 269 (4th Cir. 2003); see
also Glow Industries, Inc. v. Lopez, 252 F.Supp.2d 962,
983 (C.D. Cal 2002) (the burden falls on the senior user
to “demonstrate the territorial scope of its trademark
use in order to establish a likelihood of success on the
merits”). “A senior user must therefore show
entitlement to trademark protection in a particular
market by providing evidence of (1) market penetration
in a particular market, (2) reputation in a particular
market, or (3) a ‘zone of natural expansion’ extending
into a particular market.” MNI Management, Inc. v.
Wine King, LLC, 542 F.Supp.2d 389, 406 (D.N.J. 2008)
(internal citations omitted).
Thus, pursuant to this Court’s precedent (i.e.,
proper interpretation of the Tea Rose-Rectanus
Doctrine) and the Restatement of Torts, a senior user
should only be able to assert common law trademark
rights against a junior user, including any charges of
infringement, in the senior user’s geographical use
territory.
Further, a junior user should be able to utilize a
senior user’s common law trademark in good faith,
even with prior knowledge, if such use is outside the
senior user’s territory (and zone of natural expansion)
and under circumstances whereby the junior user has
no “design inimical” toward the senior user’s mark.

27
Unfortunately, the junior user “prior knowledge” test
sidesteps the equitable examination required under
Hanover Star and Rectanus in favor of an objective and
prejudicially incomplete determination of the junior’s
user’s state of mind (res mensa). There is no room
whatsoever in the junior user “prior knowledge” test for
considering any equitable factors or circumstances
associated with the junior user’s adoption of the subject
mark, other than the junior user’s “prior knowledge.”
The availability of nearly instantaneous
dissemination of vast amounts of information
(including the presence and localized use of common
law trademarks) across the internet has further
weakened the propriety of an objective junior user
“prior knowledge” test. Admittedly, Hanover Star and
Rectanus were both decided well before the advent of
the internet. Nevertheless, the equitable principles in
those cases are likely more relevant than ever. That is,
technological advancements instantly spread the
“knowledge” of the existence and use of a common law
user’s trademark worldwide. A junior user will
therefore almost certainly have “prior knowledge” of a
senior user’s common law mark that is already in use.
Thus, absent willful ignorance, “prior knowledge”
essentially becomes a fait accompli. Nonetheless,
circumstances are countless in which a junior user
could in good faith adopt a senior user’s mark, even
when the junior user already has “prior knowledge” of
that mark.
In one such hypothetical example, a junior user
plans to open a restaurant in Chicago, Illinois under
the name “HEARTHSTONE” but finds that the mark

28
is already being used by a chain of restaurants in and
around another city, such as Los Angeles, California.
There is no other use of the mark anywhere near the
Chicago area. There is no indication that the Los
Angeles operation will expand to other regions, and in
fact, the Los Angeles operation had shut down two of
its six locations in the past two years. The junior user
sees no potential for any legitimate likelihood of
confusion in the marketplace. Nevertheless, must the
junior user be precluded from using the mark simply
because of “prior knowledge”? Why should the junior
user’s adoption of the mark be deemed anything other
than “good faith” under such circumstances? This is
just one such example.
In another hypothetical example, a senior user is a
distributor of certain goods it obtains from a
manufacturer, but its distributor agreement with that
manufacturer contractually limits the senior user’s
marketing and sales of the manufacturer’s goods to a
defined distributor territory. The senior user cannot
sell and has not marketed or sold any goods outside its
distributor territory. The senior user places the
trademark “GOODSTUFF” on the goods it obtains from
its manufacturer and markets and sells those goods
exclusively in its distributor territory. A junior user is
also a distributor of the same goods and is fully aware
of the senior user’s limited distributorship territory and
the senior user’s limited marketing and sales efforts
that are kept within that territory. The junior user
wants to sell the same goods from the same
manufacturer with the “GOODSTUFF” trademark in
territories outside the senior user’s distributor territory
where the senior user cannot sell the goods, has not

29
marketed the goods, and has no customers. Again,
must the junior user be precluded from using the mark
simply because of “prior knowledge”? Should not all
circumstances be considered to determine the true res
mensa of the junior user? Why should the junior user’s
adoption of the mark be deemed anything other than
“good faith” under such circumstances? The junior user
“prior knowledge” test precludes consideration of any
of these circumstances.
Though “prior knowledge” is an important
consideration that should be taken into account when
determining the good faith of a junior user, it should
not be determinative. “Prior knowledge of a senior
user's trade mark does not necessarily give rise to an
inference of bad faith and may be consistent with good
faith.” The Sports Authority, Inc. v. Prime Hospitality
Corp., 89 F.3d 955, 964 (2d Cir. 1996) (“we look to
whether the defendant adopted its mark with the
intention of capitalizing on plaintiff's reputation and
goodwill and any confusion between his and the senior
user's product”); see also C.P. Interests, Inc. v. Cal.
Pools, Inc., 238 F.3d 690, 700 (5th Cir. 2001) (approving
jury instruction that “mere knowledge of defendant's
use of the mark does not defeat good faith, though it is
a factor you may consider if you find that plaintiff had
knowledge of the time of its first use”).
For these reasons, this Court should grant SISS’
Petition, uphold the equitable totality of the
circumstances analysis of a junior user’s good faith
conveyed in Hanover and Rectanus, and reject the
objective junior user “prior knowledge” test.

30
2. The Seventh Circuit’s application of the
junior user “prior knowledge” test and
failure to recognize SISS’ good faith
adoption of the Disputed Marks resulted
in a miscarriage of justice.
In the present case, the Seventh Circuit upheld the
District Court’s determination that SISS did not act in
good faith when it used the Disputed Marks because it
had “prior knowledge” of 4SEMO’s use of the marks.
4SEMO.com Inc., 939 F.3d at 912 (defining a good faith
user as “one who begins using a mark with no
knowledge that someone else is already using it”). But
extensive evidence of good faith, entirely disregarded
by the Courts below, belies that conclusion.
In particular, the record establishes that (i) over
99% of SISS’ purported “infringing” sales occurred
outside 4SEMO’s contractually defined Distributor
Territory; (ii) there were no instances of actual
confusion, despite a protracted ten years of purported
“infringement”; (iii) 4SEMO made no sales whatsoever
of any storm shelters outside its contractually defined
Distributor Territory; (iv) 4SEMO made no efforts
whatsoever to market storm shelters outside its
Distributor Territory; (v) 4SEMO presented no
evidence of any loss of goodwill or injury to its
reputation whatsoever due to SISS’ purported
“infringement”; (vi) 4SEMO identified no lost sales
whatsoever due to SISS’ purported “infringement”;
(vii) SISS had a good faith belief that it acquired rights
in the Word Mark years before 4SEMO claimed to have
created the mark; and (viii) SISS had a good faith belief
that the Logo was illegal.

31
Nonetheless, the Seventh Circuit ignored all of
these equitable considerations and upheld the District
Court’s windfall judgment in favor of 4SEMO, merely
because SISS was aware of 4SEMO’s use of the
Disputed Marks before SISS began its own use of the
marks outside 4SEMO’s sales territory. Such a
distorted and unjust result could and should be
rectified by this Court’s granting of SISS’ Petition to
uphold an equitable totality of the circumstances
analysis of a junior user’s good faith and reject the
objective junior user “prior knowledge” test.
B. The broad and nearly even split among the
Circuits regarding the proper analysis of a
junior user’s good faith adoption of a
senior user’s common law mark makes the
objective junior user “prior knowledge”
test ripe for review and rejection by this
Court.
“A principal purpose for which we use our certiorari
jurisdiction, and the reason we granted certiorari in the
present case, is to resolve conflicts among the United
States courts of appeals and state courts concerning the
meaning of provisions of federal law.” Braxton v.
United States, 500 U.S. 344, 347 (1991) (citing Supreme
Court Rule 10(a)). Although at times deferring to
Congress to clarify certain questions, this Court has
recognized that “[o]rdinarily, however, we regard the
task as initially and primarily ours.” Id. at 348; see
also Mohamad v. Palestinian Auth., 566 U.S. 449, 45253 (2012) (grating certiorari to resolve a Circuit split).

32
Here, as explained above, consistent with a proper
and equitable interpretation of the Tea Rose-Rectanus
Doctrine and the Restatement of Torts, a senior user
should be able to assert common law trademark rights
against a junior user, including any charges of
infringement, only in the senior user’s geographical use
territory. Accordingly, a junior user should be able to
utilize a senior user’s common law trademark in good
faith—even with “prior knowledge”—if such use is
outside the senior user’s territory (and natural zone of
expansion) and, under the circumstances, the junior
user has no ”design inimical” toward the senior user’s
mark.
The Second, Fifth, Eighth, and Tenth Circuits have
appropriately adopted equitable totality of the
circumstances analyses consistent with Hanover Star,
Rectanus, and the Restatement of Torts. See Star
Industries, Inc. v. Bacardi & Co. Ltd., 412 F.3d 373,
388 (2d Cir. 2005) (holding “in some cases even where
a trademark search resulted in knowledge of the earlier
mark, in the absence of additional evidence indicating
an intent to promote confusion or exploit good will or
reputation, this Court has found the junior user to be
in good faith”); C.P. Interests, Inc., 238 F.3d at 700 (5th
Cir.) (approving jury instruction that “mere knowledge
of defendant's use of the mark does not defeat good
faith, though it is a factor you may consider if you find
that plaintiff had knowledge of the time of its first
use”); General Mills, Inc. v. Kellogg Co., 824 F.2d 622,
627 (8th Cir. 1987) (stating “[k]nowledge of another’s
product and an intent to compete with that product is
not, however, equivalent to an intent by a new entrant
to a market to mislead and to cause consumer

33
confusion”) (internal citation omitted); John Allan Co.
v. Craig Allen Co., LLC, 540 F.3d 1133, 1140 (10th Cir.
2008) (holding a junior user acts in good faith when
there is no attempt “to appropriate the [trademark] to
take advantage of the senior user’s reputation or
goodwill”).
On the other hand, the Third, Sixth, Seventh, and
Ninth Circuits have adopted the inequitable and
prejudicial objective junior user “prior knowledge” test.
See A.J. Canfield Co. v. Honickman, 808 F.2d 291, n.4
(3d Cir. 1986) (stating “the senior user’s use of a mark
in one region would not suffice to prevent a junior user
from using the same mark in a region where the senior
user’s goods were unknown so long as the junior user
adopted the mark without knowledge of the senior
user’s mark and thus in good faith”); Allard
Enterprises, Inc. v. Advanced Programming Resources,
Inc., 146 F.3d 350, 361 (6th Cir. 1998) (declaring the
good faith defense only available if the junior user
adopted its mark prior to registration and “without
knowledge of the senior user’s prior use”); 4SEMO.com
Inc., 939 F.3d at 912 (holding the good faith “defense
shields those who unwittingly develop a mark that
duplicates another, not intentional counterfeiters”);
Stone Creek, Inc. v. Omnia Italian Design, Inc., 875
F.3d 426, 437 (9th Cir. 2017) (holding “[t]here is no
good faith if the junior user had knowledge of the
senior user’s prior use”).
The First Circuit has examined this issue and has
provided conflicting precedent. Compare Raxton Corp.
v. Anania Associates, Inc., 635 F.2d 924, 928-30 (1st
Cir. 1980) (“Rack adopted in good faith what amounted

34
to a new name in Massachusetts, without notice of
Rax’s choice and without intention to trade upon Rax’s
reputation.” The good faith defense is available when
a junior user adopts a mark “without an intent to
benefit from preexisting consumer goodwill developed
by another”); with Thrifty Rent-A-Car System, Inc. v.
Thrift Cars, Inc., 831 F.2d 1177, 1181 (1st Cir. 1987)
(“the junior user must have used the mark
continuously in that location and initially in good faith
without notice of an infringing mark”).
Notably, in light of this Circuit split, the Fourth
Circuit has opted to sit on the sidelines. Emergency
One, Inc., 332 F.3d at 271 (“There is a circuit split, and
we will not decide our stance today”).
This nearly equal split among the Circuits creates
confusion and uncertainty across the country that only
this Court can rectify. Accordingly, this Court should
grant SISS’ Petition, uphold the Tea Rose-Rectanus
Doctrine, adopt a totality of the circumstances analysis
to determine whether a junior user acted in good faith
or with a “design inimical” in adopting a senior user’s
common law trademark, and reject the objective junior
user “prior knowledge” test.

35
C. The objective junior user “prior
knowledge” test impermissibly undermines
key provisions of the Lanham Act by
expanding the limited territorial scope of
common law trademark rights into
judicially sanctioned nationwide use,
thereby eviscerating the Lanham Act’s
statutory benefit of constructive
nationwide use bestowed by federal
registration.
As explained above, under principles of equity and
consistent with the Tea Rose-Rectanus Doctrine, a
senior user can only enforce its common law mark
against a junior user in the geographic territory in
which the senior user sells its goods or services
associated with the mark. The objective junior user
“prior knowledge” test abandons these equitable
principles in favor of expediency. In addition, this test
undermines one of the most significant benefits
bestowed upon a trademark through federal
registration under the Lanham Act: constructive
nationwide use. In particular, the Lanham Act
provides as follows:
(c) Application to register mark considered
constructive use
Contingent on the registration of a mark on the
principal register provided by this chapter, the
filing of the application to register such
mark shall constitute constructive use of
the mark, conferring a right of priority,
nationwide in effect, on or in connection with
the goods or services specified in the registration

36
against any other person except for a person
whose mark has not been abandoned and who,
prior to such filing –
(1)
has used the mark;
(2)
has filed an application to register the
mark which is pending or has resulted
in registration of the mark; or
(3)
has filed a foreign application to
register the mark on the basis of
which he or she has acquired a right of
priority, and timely files an
application under section 1126(d) of
this title to register the mark which is
pending or has resulted in registration
of the mark.
15 U.S.C. § 1057 (emphasis added).
Thus, upon the successful completion of all
appropriate application and registration proceedings at
the U.S. Patent & Trademark Office (“USPTO”),
including publication and the possible institution of an
Opposition and Cancellation proceeding against the
registration, and after payment of all appropriate
administrative fees, a trademark that is duly
registered with the USPTO is statutorily presumed to
have nationwide use as of the filing date of the
application for that registration. See id. Thus, no
matter how small the actual geographic reach of a
trademark’s use, once that trademark has been vetted
by the USPTO, it is presumed as a matter of statutory
law under the Lanham Act that the trademark has
been in continual use across the entire United States
as of the application filing date. Id.

37
It is well recognized that federal registration
promotes substantial public policy goals, including the
segregation of senior users from later, even ‘innocent’
junior users:
By providing notice to potential users of the
same or a confusingly similar mark, federal
registration promotes the purposes of trademark
law. Registration serves as constructive notice to
the public of the registrant’s ownership of the
mark, see 15 U.S.C. § 1072, and thus prevents
another user of the mark from claiming innocent
misappropriation as a trademark infringement
defense. See Beatrice Foods, 429 F.2d at 472, 166
USPQ at 435 (“[T]he constructive notice
provision of § 22 of the Lanham Act (§ 15 U.S.C.
1072), takes away from future users of the mark
registered the defense of innocent
appropriation.”).
In re International Flavors & Fragrances, Inc., 183
F.3d 1361, 1367 (Fed. Cir. 1999).
Hence, the Lanham Act’s statutory recognition of
constructive nationwide use constitutes an extremely
valuable benefit to the trademark owner that was
clearly intended to be, and should be, achievable only
through the proper channel of federal registration.
Nevertheless, with the advent of the internet and
various forms of electronic social media, vast amounts
of wide-ranging and disparate information is routinely
disseminated across the country, and the world, in a
nearly instantaneous manner. This dissemination, of
course, includes even very limited and regional

38
common law trademark use. The result of these
advances in technology is that virtually any use of a
trademark nearly anywhere in the United States, no
matter how limited such use may be, can be found
using even the most casual or rudimentary internet
search. Moreover, such trademark use may become
“known” without any intentional or directed internet
search, simply from the sharing and dissemination of
information through various forms of electronic social
media, such as, for example, Facebook®, Twitter®, or
Instagram®.
Thus, due to these technological advancements, the
“knowledge” of the existence and use of a common law
user’s trademark will instantly spread worldwide, and
vastly outstrip its geographical reach in a moment’s
notice. A junior user will therefore almost certainly
have “prior knowledge” of a senior user’s common law
mark that is already in use if any attempt is made by
the junior user to search for such use on the internet,
or merely through knowledge circulated via electronic
social media. Consequently, using the objective junior
user “prior knowledge” test to stamp the moniker of
“design inimical” on a junior user based upon nothing
more than “prior knowledge” ipso facto grants the
senior user effective nationwide use without having to
first obtain federal registration under the Lanham Act.
Today’s technological advances, in and of
themselves, should not result in a common law
trademark gaining the benefit of nationwide
geographical territorial use where no such use has been
conducted or established. Hanover Star, 240 U.S. at
416 (holding “the mark, of itself, cannot travel to

39
markets where there is no article to wear the badge
and no trader to offer the article”). Nevertheless,
application of the objective junior user “prior
knowledge” test judicially sanctions such a result,
contrary to the express holdings of this Court. The
objective junior user “prior knowledge” test therefore
flies in the face of, if not fully eviscerates, a central
component of the Lanham Act’s federal registration
requirements and process. Moreover, application of the
“prior knowledge” test encourages one to (as the saying
goes) bury one’s head in the sand. In effect, the only
guaranteed effective way to ensure a lack of “prior
knowledge” is willful ignorance. Accordingly, in light
of these technological changes facing all trademark
users, this Court should grant SISS’ Petition and
prevent judicial erosion of the Lanham Act’s
constructive nationwide use provisions by denouncing
the objective junior user “prior knowledge” test.
CONCLUSION
The United States Supreme Court should grant this
petition for a writ of certiorari to correct these
significant errors in the Seventh Circuit’s opinion. This
petition is not based on a simple error the Circuit Court
made in applying the law. Rather, the petition seeks
certiorari based on significant circuit splits regarding
the proper legal framework for determining trademark
ownership and lawful use.
The petition for a writ of certiorari should be
granted.

40
Respectfully submitted,
John L. Gilbert
Counsel of Record
Douglas D. Churovich
Timothy C. Sansone
Cody S. Hagan
SANDBERG PHOENIX & von GONTARD P.C.
600 Washington Ave., 15th Floor
St. Louis, MO 63101
314-231-3332
314-241-7604 (Fax)
jgilbert@sandbergphoenix.com
Attorneys for Petitioners

